No. 19-161

 

 

IN THE

Supreme Court of the Anited States

DEPARTMENT OF HOMELAND SECURITY, et al.,

Petitioners,
v.

VIJAYAKUMAR THURAISSIGIAM,
Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

BRIEF OF PROFESSORS OF
SRI LANKAN POLITICS AS AMICI CURIAE
IN SUPPORT OF RESPONDENT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,373 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 22, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
